U.S. Department of Agriculture
 Office of Inspector General
     Great Plains Region
         Audit Report



      Food and Nutrition Service
    National School Lunch Program
 Food Service Management Company
Cost Reimbursable Contracts in Missouri




                  Report No.
                  27601-14-KC
                  December 2002
                UNITED STATES DEPARTMENT OF AGRICULTURE
                             OFFICE OF INSPECTOR GENERAL - AUDIT
                                        Great Plains Region
                                  8930 Ward Parkway, Suite 3016
                                 Kansas City, Missouri 64114-3302
                               TEL: 816.926.7667 FAX: 816.926.7676




DATE:        December 23, 2002

REPLY TO
ATTN OF:     27601-14-KC

SUBJECT:     National School Lunch Program – Cost Reimbursable Contracts in
             Missouri

TO:          William E. Ludwig
             Regional Administrator
             Food and Nutrition Service
             1244 Speer Boulevard, Suite 903
             Denver, CO 80204

This report presents the results of our audit concerning the National School Lunch
Program and one food service management company.                        Your staff’s
December 13, 2002, written response is included as exhibit B with excerpts and our
positions incorporated into the relevant sections of the report. Based on the lack of
information concerning the timeframes for accomplishing the contemplated actions
contained in the reply, we were unable to achieve management decisions for any of the
recommendations in the report.

In accordance with Departmental Regulation 1720-1, please furnish a reply within
60 days describing the corrective actions taken or planned for each recommendation,
including estimated timeframes for implementation. Please note that the regulation
requires a management decision be reached on all recommendations within a maximum
of 6 months after report issuance.

We appreciate the cooperation and assistance extended by your office, the Missouri
State agency, and the school food authority during the review.

/s/


DENNIS J. GANNON
Regional Inspector General
  for Audit

Attachment
                       EXECUTIVE SUMMARY
                     FOOD AND NUTRITION SERVICE
                FOOD SERVICE MANAGEMENT COMPANY
              COST REIMBURSABLE CONTRACTS IN MISSOURI

                             AUDIT NO. 27601-14-KC


                                      We evaluated if payments made by a school
     RESULTS IN BRIEF                 food authority (SFA) in Missouri to a food
                                      service management company (FSMC) were
                                      appropriate. Specifically, we evaluated Food
         and Nutrition Service (FNS), State agency (SA), and SFA controls over
         the adequacy of requests for proposal and contracts under which the
         FSMC agreed to manage the SFA’s food service and, in particular, the
         FSMC’s compliance with FNS regulations and guidelines. We selected
         the FSMC for review based on information developed from our work on a
         prior nationwide audit of selected FSMC’s on whether they had credited
         SFA’s for the full value of United States Department of Agriculture (USDA)
         donated commodities used and for all volume purchase discounts,
         rebates, and other credits. We selected the Poplar Bluff SFA for review
         based on its having the highest total meal reimbursements of Missouri
         SFA’s with cost reimbursable contracts with the FSMC. We determined
         that controls were insufficient to ensure that costs charged to the SFA by
         the FSMC were supported by documentation, such as vendor invoices.
         As a result, the FSMC billed and the SFA paid for $7,418 in unallowable
         and excessive costs and fees.

           We also performed this audit to determine whether sufficient controls
           existed to ensure that the FSMC credited the SFA in the State of Missouri
           for all volume purchase discounts, rebates, or other credits applicable to
           the National School Lunch Program (NSLP)/School Breakfast Program
           (SBP). Based on our review results, we expanded our coverage to
           include other State SFA’s and will be reporting these results in a
           subsequent audit report. During this review, we issued a management
           alert on June 21, 2002, (27601-14-KC (1)), concerning cost reimbursable
           contracts. The management alert and the issue of whether the FSMC
           credited Missouri SFA’s for all volume purchase discounts, rebates, or
           other credits applicable to the NSLP/SBP will be covered in a subsequent
           audit report. This latter report will be the result of an expanded nationwide
           audit.


USDA/OIG-A/27601-14-KC                                                           Page i
                                    We recommend that FNS instruct the SA to
  KEY RECOMMENDATIONS               require the SFA to strengthen controls so that
                                    the FSMC is only paid for allowable expenses.
                                    In addition, FNS should instruct the SA to
         require the SFA to collect the unallowable and excessive costs billed to
         the SFA by the FSMC. We also recommend that FNS instruct the SA to
         require the SFA to review the advertising and food costs claimed by the
         FSMC for other months in the 3 school years, and collect any unallowable
         or excessive costs claimed, or present a cost justification for not
         performing the review.

                                      In its response to our draft report, the FNS
     AGENCY RESPONSE                  Regional Office concurred with the key
                                      recommendations. FNS stated that the State
                                      agency would be instructed to ensure that
         local officials comply with program requirements for accounting for all
         expenditures in accordance with Federal regulations for determining that
         expenses billed by the FSMC were correct and allowable during the period
         of the audit. FNS also stated that local officials must ensure that nonprofit
         school food service funds are not used for unallowable expenses. Lastly,
         FNS stated that local officials could choose to transfer funds from sources
         other than the nonprofit school food service account to replace the
         unallowable expenses, or offset those expenses with previously
         unreported allowable costs, or collect any unallowable expenses from the
         FSMC and report the results of the evaluation to the SA for demonstrating
         and documenting that the SFA has a system that ensures that the FSMC
         is performing in accordance with the terms, conditions, and specifications
         of its contract.

                                       We agree with the proposed actions; however,
         OIG POSITION                  in order to reach management decision on the
                                       recommendations, we need to be advised of
                                       the timeframes for instructing the State
           agency on the prescribed corrective actions and for implementing the
           contemplated actions. We recognize that the SFA could have additional
           unreported allowable costs.




USDA/OIG-A/27601-14-KC                                                         Page ii
                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................................................................................i
   RESULTS IN BRIEF....................................................................................................i
   KEY RECOMMENDATIONS ......................................................................................ii
   AGENCY RESPONSE ...............................................................................................ii
   OIG POSITION...........................................................................................................ii
TABLE OF CONTENTS................................................................................................iii
INTRODUCTION............................................................................................................1
   BACKGROUND .........................................................................................................1
   OBJECTIVES .............................................................................................................2
   SCOPE .......................................................................................................................2
   METHODOLOGY .......................................................................................................3
FINDINGS AND RECOMMENDATIONS .......................................................................4
   CHAPTER 1 ...............................................................................................................4
   SFA CONTROLS OVER FSMC BILLINGS NEED IMPROVEMENT .........................4
   FINDING NO. 1 ..........................................................................................................4
   RECOMMENDATION NO. 1 ......................................................................................6
   RECOMMENDATION NO. 2 ......................................................................................6
   RECOMMENDATION NO. 3 ......................................................................................7
   FINDING NO. 2 ..........................................................................................................7
   RECOMMENDATION NO. 4 ......................................................................................9
   RECOMMENDATION NO. 5 ......................................................................................9
   FINDING NO. 3 ........................................................................................................10
   RECOMMENDATION NO. 6 ....................................................................................11
   RECOMMENDATION NO. 7 ....................................................................................12
   EXHIBIT A – SUMMARY OF MONETARY RESULTS ............................................13
   EXHIBIT B – AUDITEE’S RESPONSE TO AUDIT REPORT ..................................14
ABBREVIATIONS........................................................................................................18


USDA/OIG-A/27601-14-KC                                                                                                 Page iii
                            INTRODUCTION

                                    The Food and Nutrition Service (FNS), an
       BACKGROUND                   agency of the United States Department of
                                    Agriculture (USDA), administers the National
                                    School Lunch Program (NSLP). The National
         School Lunch Act was passed in 1946 to safeguard the health and
         well-being of the Nation’s children and encourage the domestic
         consumption of agricultural commodities. The program provided Federal
         assistance to help public and nonprofit private schools serve nutritious
         lunches to children. In 1966, Congress expanded food assistance to
         include the School Breakfast Program (SBP), which became a permanent
         program in 1975.

          Through the Missouri Department of Elementary and Secondary
          Education (State agency), FNS provides donated foods and cash
          reimbursements to school food authorities (SFA) for meals served in the
          NSLP/SBP. The Act, as amended, authorized payment of general and
          special cash assistance funds to State agencies. The general cash
          assistance is based upon the number of lunches served; whereas, the
          special cash assistance is based on the number of free or reduced-price
          lunches/breakfasts served. Eligibility of children for free, reduced-price, or
          full-price lunches/breakfasts is based on family household size and
          income. The total cash assistance each State agency (SA) receives is
          based on the number of meals claimed by the SFA’s multiplied by the
          applicable rate.

          SFA’s may contract with food service management companies (FSMC) to
          assist in the food service operation involving the NSLP/SBP in one or
          more of their schools. However, the SFA is still responsible for overall
          program integrity and adhering to Federal and State requirements. A
          Request for Proposal or Invitation to Bid is provided to applicable bidders
          detailing the requirements each contract must meet. Federal regulations
          provide that a contract between an SFA and an FSMC may include either
          a fixed-price (fee per meal) or cost-plus-a-fixed-fee.

          The estimated NSLP/SBP funding for Federal fiscal year (FY) 2001 was
          over $7.25 billion. Funding for the NSLP/SBP for FY’s 2000 and 1999 was
          about $7 billion and $6.8 billion, respectively. The Missouri SA received



USDA/OIG-A/27601-14-KC                                                          Page 1
          about $123.9 million and $119.3 million for the 2000 and 1999 FY’s,
          respectively.

                                      The primary objective of this review was to
        OBJECTIVES                    determine whether sufficient controls existed
                                      to ensure that the FSMC credited the Poplar
                                      Bluff SFA for all volume purchase discounts,
         rebates, or other credits applicable to the NSLP/SBP. Specifically, we
         evaluated the SA and the SFA’s controls over (1) request for proposal and
         contract provisions under which FSMC’s agreed to manage the SFA’s
         food service, and, in particular, FSMC’s compliance with FNS regulations
         and guidelines, and (2) procedures to ensure that volume purchase
         discounts, rebates, or other credits applicable to the NSLP/SBP are
         properly accounted for by the FSMC and credited to the SFA under
         cost-reimbursable type contracts, and (3) procedures to ensure the
         accuracy of meal counts, claims, and FSMC billings.

          We will address the primary objective regarding volume purchase
          discounts, rebates, or other credits applicable to the NSLP/SBP in
          Missouri as part of nationwide coverage in a separate audit report.

                                    We performed our review at the Mountain
           SCOPE                    Plains FNS Regional Office in Denver,
                                    Colorado; the Missouri Department of
                                    Elementary and Secondary Education in
          Jefferson City, Missouri; and the Poplar Bluff SFA in Poplar Bluff,
          Missouri, between March 13 and August 6, 2002. Our audit covered the 3
          school years ending June 30, 2001.

          During school years 1999, 2000, and 2001, 62, 62, and 73 SFA’s,
          respectively, operated in Missouri that maintained food service contracts
          with FSMC’s. Fifteen, twelve, and fourteen of the SFA’s maintained cost
          reimbursable food service contracts with this one FSMC in school years
          1999, 2000, and 2001, respectively. We judgmentally selected the
          Poplar Bluff SFA, which entered into a cost reimbursable contract, based
          on the value of meal reimbursements from the State Payments by Fund
          report.

          This audit was conducted in accordance with Government Auditing
          Standards.




USDA/OIG-A/27601-14-KC                                                      Page 2
                                      To accomplish our objectives and assess the
       METHODOLOGY                    internal controls, we reviewed records and
                                      interviewed officials at the FNS Regional
                                      Office, the SA, and the Poplar Bluff SFA. We
         also interviewed three of the contractor’s vendors and one distributor, in
         person and by telephone.           In addition, we also interviewed the
         independent auditor firm personnel by telephone concerning the Poplar
         Bluff SFA. We evaluated the policies and procedures for contracting
         between SFA’s and FSMC’s at the FNS Regional Office and the SA. We
         analyzed the contract documents, supporting documentation for the
         contractor’s billings, and the SFA’s claims for reimbursement. Records
         reviewed included compilations of daily meal count records, claims for
         reimbursement, contractor billings to the SFA, supporting documentation
         attached to the billings, and contractor or district physical inventories of
         USDA donated commodities, SA review documents, single audit reports
         for the selected SFA, requests for proposals, bid specifications, bid
         proposals, and contracts.




USDA/OIG-A/27601-14-KC                                                       Page 3
            FINDINGS AND RECOMMENDATIONS


 CHAPTER 1        SFA CONTROLS OVER FSMC BILLINGS NEED
                  IMPROVEMENT


           The SFA needs to strengthen its controls over the billings from the FSMC.
           Despite an SFA official’s attempts to monitor the costs claimed by the
           FSMC, the FSMC claimed, and was paid for, excessive meal costs and
           fees, and unallowable advertising costs. This happened because the
           reviews were insufficient to ensure that costs charged to the SFA by the
           FSMC were allowable. As a result, the SFA overpaid the FSMC $7,418
           over the 3-year period ending June 30, 2001.

                                 The Poplar Bluff SFA did not ensure that the
       FINDING NO. 1             FSMC claimed only expenses actually
                                 incurred in its billings. SFA officials reviewed
   FSMC CLAIMED EXCESSIVE        the FSMC’s billings for reasonableness but did
         EXPENSES                not request and review vendor invoices from
                                 the FSMC. As a result, the FSMC billed, and
                                 the SFA paid for, $5,169 in excessive
          expenses of which; $4,442 was food expenses, $144 was paper
          expenses, and $583 was cleaning supply expenses during school year
          1999.

           The contract between the SFA and the FSMC for the 1999 school year,
           and renewed each subsequent year through the 2002 school year,
           includes clauses related to the FSMC costs to be reimbursed by the SFA.
           Clause 9.6, Invoices, states substantially as follows:

                  The FSMC shall invoice the District monthly a sum not to exceed
                  the amount necessary to cover the FSMC’s expenditures for the
                  food service operation and/or the submission of a valid claim for the
                  items designated in Article X. The FSMC will provide a reconciled
                  monthly statement from its weekly billing procedures. Payment
                  shall be due within ten (10) days of receipt of the weekly invoice.


           Clause 10.2, Operating Expenses, in the contract states substantially as


USDA/OIG-A/27601-14-KC                                                         Page 4
                 follows:

                         The FSMC’s cost of operating the food service will include, but not
                         be limited to, the cost of goods, including food, beverages and
                         supplies, salaries and wages of all of the FSMC’s food service
                         employees, payroll taxes, applicable benefits, and other costs,
                         charges, and expenses necessary to perform the duties and
                         obligations under this Agreement including, but not limited to, office
                         supplies, insurance, training, licenses/permits, laundry, uniforms,
                         postage, paper goods, signage and taxes.

                 In addition, Federal guidance states that the SFA’s contract monitoring
                 responsibilities include, but are not limited to; evaluating cost records,
                 including source documentation supporting charges for contractually
                 approved costs for cost-based contracts.1 The SA “On-site Review Form,
                 Local Education Agencies (LEA) Contracting with Food Management
                 Companies”, asks SA reviewers to determine if the SFA is monitoring food
                 purchases for compliance with contract specifications and billings
                 submitted by the FSMC for accuracy.

                 An SFA official stated that while the Final Client Operating Statements
                 were reviewed for reasonableness, no requests were made for supporting
                 vendor invoices from the FSMC for the expenses claimed in its monthly
                 billings to the SFA.

                 The FSMC billed the SFA for $1.4 million in food costs for school years
                 1999, 2000, and 2001 through January 2001. We selected for review food
                 costs claimed in September 1998, September 1999, and September 2000.
                  September had the highest food costs in each school year. The food
                 costs for all three Septembers totaled $320,079, which was about
                 24 percent of the total food expenses claimed. We requested supporting
                 vendor invoices from the FSMC for the expenses selected for review.

                 Our review revealed that in September 1998, the FSMC charged the SFA
                 twice for one invoice. The FSMC paid its vendor twice for the same
                 invoice and then billed the SFA for both payments. The invoice amount
                 was listed on the FSMC’s Daily Purchase Record twice, once for
                 $5,121.44 and once for $5,098.99.


                 We obtained a copy of the invoice and determined that the total amount of

1
  FNS procedures, dated June 1995, “Contracting with Food Service Management Companies, Guidance for School Food
Authorities,” Chapter 7.



USDA/OIG-A/27601-14-KC                                                                                Page 5
          $5,121.44; of which $4,394.97 was food, $143.50 was paper expense,
          and $582.97 was cleaning expense, was correct. As a result, we question
          the $5,098.99 being claimed again, apparently for this invoice. FSMC
          officials stated that they had paid the vendor twice on this invoice, the
          second time for an erroneous amount. The Daily Purchase Record
          showing the duplication of amounts for the invoice was included in a
          Summary of Daily Purchase Records and in the FSMC’s billing to the SFA
          for September 1998.

          We also determined that the FSMC charged $69 in toner from an office
          supply vendor as food expense. FSMC officials attributed this to a coding
          error input into their accounting system.

                                     Instruct the SA to require the SFA to
  RECOMMENDATION NO. 1               strengthen its controls by reviewing the FSMC
                                     billings along with their supporting source
                                     records for excessive expenses.

          Agency Response

          FNS concurs with this recommendation and will instruct the SA to require
          the SFA to strengthen its controls by reviewing the FSMC billings along
          with their supporting records for excessive expenses.

          OIG Position

          In order to consider the management decision, we need to be notified of
          the proposed dates for accomplishing the contemplated corrective actions.


                                     Instruct the SA to require the SFA to collect
  RECOMMENDATION NO. 2               the excessive costs from the FSMC.


          Agency Response

          FNS concurs with this recommendation and will instruct the SA to require
          the SFA to either reimburse the nonprofit school food service funds from
          other sources for payments for unallowable costs or to collect excessive
          costs charged by the FSMC.



          OIG Position


USDA/OIG-A/27601-14-KC                                                     Page 6
                      In order to consider the management decision, we need to be notified of
                      the proposed dates for accomplishing the contemplated actions and
                      provided documentation showing that the SFA has either reimbursed the
                      nonprofit school food service funds from other sources or billed the FSMC
                      for the excessive costs.

                                  Instruct the SA to require the SFA to
      RECOMMENDATION NO. 3        periodically review food expenses billed to
                                  supporting source documentation for the
                                  FSMC for other remaining months of school
            years 1999, 2000, and 2001, and recover any excessive expense
            reimbursements found.

                      Agency Response

                      FNS concurred with the recommendation. FNS stated they would instruct
                      the SA to require the SFA to review the amounts billed by the FSMC
                      during the other remaining months of school years 1999, 2000, and 2001,
                      and either compensate the nonprofit school food service fund or recover
                      any unallowable costs from the FSMC.

                      OIG Position

                      In order to consider the management decision, we need to be notified of
                      the proposed dates when the FNS and SFA intend to complete the
                      contemplated actions.

                                        The FSMC claimed advertising expenses that
          FINDING NO. 2                 had already been paid for as part of the
                                        administrative fee. In addition, the advertising
    FSMC CLAIMED UNALLOWABLE            costs were unallowable under Federal cost
       ADVERTISING EXPENSE              principles.2    SFA officials reviewed the
                                        FSMC’s billings for reasonableness but were
                                        not aware that advertising expenses had been
             claimed because they did not request and review vendor invoices and
             other supporting documentation from the FSMC. As a result, the SFA
             paid the FSMC for $1,292 in unallowable advertising costs.

                      Federal guidance states that the SFA’s contract monitoring responsibilities
                      include evaluating the FSMC’s cost records; including source
                      documentation supporting charges for contractually approved costs for

2
    Office of Management and Budget (OMB) Circular A-87, Attachment B, Section 2.c., Advertising.



USDA/OIG-A/27601-14-KC                                                                              Page 7
                  cost-based contracts.3

                  The contract between the SFA and the FSMC for the 1999 school year,
                  and renewed each subsequent year through the 2002 school year,
                  includes clauses related to the FSMC’s costs to be reimbursed by the
                  SFA. Clause 10.3 of the contract reads substantially as follows:

                            The FSMC’s overhead expenses necessary to operate the food
                            service includes, but is not limited to: area and zone supervision,
                            general support provided by the FSMC’s corporate offices,
                            including without limitation, accounting, purchasing, tax, law,
                            training, marketing, research, auditing other related administrative
                            functions. The FSMC’s administrative/service management fee will
                            be $0.0380 per meal served. For annual renewal terms, the cost of
                            administration expense shall increase by $0.0011 per meal served.

                  In addition, Federal cost principles4 state that to be allowable, a cost has
                  to be necessary and reasonable, allocable, authorized, consistent, and be
                  accorded consistent treatment.        Federal cost principles5 state that
                  advertising costs are allowable only when incurred for the recruitment of
                  personnel, the procurement of goods and services, the disposal of surplus
                  materials, and any other specific purposes necessary to meet the
                  requirements of the Federal award.

                  We, judgmentally, selected certain expenses charged by the FSMC to the
                  SFA during the 3 school years for further review. We selected advertising
                  expenses, meals and entertainment expenses, client investment
                  amortization expense, equipment replacement expense, outside services
                  expense, and USDA expenses from the FSMC’s billing statements based
                  on amount and/or unusual payments. One of the selected expenses was
                  $1,292 in advertising expenses claimed in October 1998 during the 1999
                  school year. The FSMC’s management explained that $779 of the $1,292
                  was paid to a vendor for toys (pencils, erasers, tattoo’s, and stickers, etc.)
                  used as prizes for elementary students. The FSMC management
                  explained that $513 “is a corporate charge for materials, such as manuals
                  and marketing materials, developed by our company”. They further
                  explained that this represented a .3 percent charge of the prior month’s
                  sales.

                  As documentation, the FSMC provided us an operating ledger page,

3
  FNS procedures, dated June 1995, “Contracting with Food Service Management Companies, Guidance for School Food
Authorities,” Chapter 7.
4
  OMB Circular A-87, Attachment A, Section C.
5
  OMB Circular A-87, Attachment B, Section 2.c., Advertising.



USDA/OIG-A/27601-14-KC                                                                                             Page 8
          which showed two entries under “Sales Promotion” for $779 with a
          vendor’s name in the text area and for $513 with “General Journal” in the
          text area. The operating ledger page had a handwritten note referring to
          $513 of the expense as “.3% prior period sales” and referring to another
          operating ledger page, which showed an entry labeled “CONTRACTUAL
          ENTRY” for $170,954. We determined that .3 percent of the $170,954
          was $513. However, the FSMC management stated that they did not
          have a copy of the invoice for the $779 entry. We determined that the
          $1,292 in advertising costs claimed was unallowable because the SFA
          had paid marketing expenses as part of the administrative fee received by
          the FSMC.

                                     Instruct the SA to require the SFA to recover
  RECOMMENDATION NO. 4               the unallowable $1,292 from the FSMC.


          Agency Response

          FNS concurs with the recommendation and will instruct the SA to require
          the SFA to recover the unallowable $1,292.

          OIG Position

          In order to consider the management decision, we need to be notified of
          the proposed dates for accomplishing the contemplated actions and
          provided supporting documentation that the SFA has billed the FSMC for
          the unallowable costs.

                                     Instruct the SA to require the SFA to review
  RECOMMENDATION NO. 5               and collect advertising expenses billed by the
                                     FSMC in other months of school years 1999,
                                     2000, and 2001.

          Agency Response

          FNS concurs with the recommendation and will instruct the SA to require
          the SFA to review and collect advertising expenses billed by the FSMC in
          other months of school years 1999, 2000, and 2001.




USDA/OIG-A/27601-14-KC                                                     Page 9
                  OIG Position

                  In order to consider the management decision, we need to be notified of
                  the proposed dates for accomplishing the contemplated actions, including
                  when the SFA anticipates completing its review.

                                        The FSMC did not use the fee rates stated in
         FINDING NO. 3                  the contract and overcharged the SFA for
                                        administrative and management fees. The
     FSMC OVERCHARGED FEES              SFA did not discover the overcharges
                                        because the FSMC did not provide the SFA
                                        with the portion of the Final Client Operating
            Statement that shows the meal counts, including meal equivalents.
            Therefore, the SFA had insufficient information to verify that the fees were
            being billed correctly. As a result, the FSMC overcharged the SFA $957
            in administrative and management fees.

                  Federal guidance states that the SFA’s contract monitoring responsibilities
                  include evaluating the FSMC’s cost records; including source
                  documentation supporting charges for contractually approved costs for
                  cost-based contracts.6

                  Clause 10.3, Cost of Administration, in the SFA’s 1999 contract with the
                  FSMC states:

                           The FSMC overhead expenses necessary to operate the food
                           service includes, but is not limited to: area and zone supervision,
                           general support provided by the FSMC’s corporate offices,
                           including without limitation, accounting, purchasing, tax, law,
                           training, marketing, research, auditing other related administrative
                           functions. The FSMC’s administrative/service management fee will
                           be $0.0380 per meal served. For annual renewal terms, the cost of
                           administration expense shall increase by $0.0011 per meal served.

                  Clause 10.4, Management Fee, in the SFA’s 1999 contract with the FSMC
                  states:

                           The FSMC management fee will be $0.0190 per meal served. For
                           annual renewal terms, the management fee expense shall increase
                           by $0.00055 per meal served.


6
 FNS procedures, dated June 1995, “Contracting with Food Service Management Companies, Guidance for School Food
Authorities,” Chapter 7.



USDA/OIG-A/27601-14-KC                                                                                       Page 10
          Clause 10.5, Computing Meals, in the contract states that the total meals
          are the actual number of reimbursable breakfasts and lunches served to
          students plus meal equivalents. The clause defines meal equivalents as
          cash receipts including special functions, other than from the sale of
          reimbursable breakfasts and lunches to children, divided by $1.25 to arrive
          at equivalent meal counts.

          To verify the accuracy of the administrative and management fees claimed
          by the FSMC, we prepared a spreadsheet for each of the 3 school years
          ending June 30, 2001, using the total meal counts, including meal
          equivalents, claimed by the FSMC on the Final Client Operating
          Statements, the administrative and management fee rates in the contract,
          and the administrative and management fees charged to the SFA by the
          FSMC. We determined that the FSMC over billed the SFA by $3,909 in
          school year 1999 and under billed the SFA by $2,301 in school year 2000
          and $651 in school year 2001 through February 2001.

          When asked what rates they used to compute the management and
          administrative fees billed to the school district, FSMC personnel stated
          that they used $.0391 per meal for the management fee and $.0196 per
          meal for the administrative fee. We prepared another spreadsheet using
          these rates per the FSMC and the total meal counts claimed by the FSMC
          on the Final Client Operating Statements and compared the result to the
          fees actually billed on the Final Client Operating Statements. We noted
          that using the FSMC actual billing rates, the net over claim for all 3 years
          would have been $254. However, the cited rates actually used by the
          FSMC did not comply with the rates as stated in the contract.

                                      Instruct the SA to require the SFA to recover
  RECOMMENDATION NO. 6                the overcharge totaling $957 from the FSMC.


          Agency Response

          FNS concurs with the recommendation and will instruct the SA to require
          the SFA to recover the net overcharge totaling $957 from the FSMC.

          OIG Position

          In order to consider the management decision, we need to be notified of
          the proposed dates for accomplishing the contemplated actions and
          provided supporting documentation showing that the SFA has billed the
          FSMC for the $957 overcharge.



USDA/OIG-A/27601-14-KC                                                       Page 11
                                    Instruct the SA to require the SFA to request
  RECOMMENDATION NO. 7              the total meals claimed each month from the
                                    FSMC and periodically verify that the FSMC is
                                    charging the proper fee amounts per the
          contract.

          Agency Response

          FNS concurs with the recommendation. FNS will instruct the SA to
          require the SFA to obtain the total meals claimed each month and
          periodically verify that the FSMC is charging the proper fee.

          OIG Position

          In order to consider the management decision, we need to be notified of
          the proposed dates for implementing the contemplated corrective actions.




USDA/OIG-A/27601-14-KC                                                   Page 12
EXHIBIT A – SUMMARY OF MONETARY RESULTS

Finding No.      Description        Amount   Category
1                FSMC Claimed       $5,169   Funds To Be Put To
                 Excessive                   Better Use –
                 Expenses                    Management or
                                             Operating
                                             Improvements/Savings
2                FSMC Claimed       $1,292   Funds To Be Put To
                 Unallowable                 Better Use –
                 Advertising                 Management or
                 Expense                     Operating
                                             Improvements/Savings
3                FSMC               $957     Funds To Be Put To
                 Overcharged Fees            Better Use –
                                             Management or
                                             Operating
                                             Improvements/Savings




USDA/OIG-A/27601-14-KC                                   Page 13
EXHIBIT B – AUDITEE’S RESPONSE TO AUDIT REPORT




USDA/OIG-A/27601-14-KC                           Page 14
USDA/OIG-A/27601-14-KC   Page 15
USDA/OIG-A/27601-14-KC   Page 16
USDA/OIG-A/27601-14-KC   Page 17
                         ABBREVIATIONS

          FNS        -    Food and Nutrition Service

          FSMC       -    Food Service Management Company

          FY         -    Fiscal Year

          LEA             Local Education Agency

          NSLP       -    National School Lunch Program

          OIG        -    Office of Inspector General

          OMB        -    Office of Management and Budget

          SA         -    State Agency

          SBP        -    School Breakfast Program

          SFA        -    School Food Authority

          USDA       -    U.S. Department of Agriculture




USDA/OIG-A/27601-14-KC                                      Page 18
